BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.

Records

JULIE

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound
copy and 40 copies of the foregoing Brief of Amici
Curiae Cities of Oakland, Saint Paul, and 30
Additional Cities and Counties in Support of
Respondents in 19-431, Little Sisters of the Poor Saints
Peter and Paul Home v. Pennsylvania, et al., and 19454, Donald J. Trump, President of the United States,
et al. v. Pennsylvania, et al., were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 8th day of April, 2020:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becketlaw.org

Counsel for Little Sisters of the Poor Saints Peter
and Paul Home
Noel Francisco
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Donald J. Trump, President of the
United States, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

Suite l 02

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

A. KERSHNER, J.D.

Michael J. Fischer
Pennsylvania Office of Attorney General
1600 Arch St.
Suite 300
Philadelphia, PA 19103
(215) 560-2171
mfischer@attorneygeneral.gov
Counsel for Commonwealth of Pennsylvania, et al.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 8, 2020.

Becker Gallaglier Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Qd fr

cPflvlJ. b ~

Notary Public
[seal]

cJ4-)Q

